C@OCKLE

2311 Douglas Street l Bri f E-Mail Address:
ega €
Omaha, Nebraska 68102-1214 L 8 Pa 19 2 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

v.
AGNES MORRISSEY-BERRU,
Respondent.
ST. JAMES SCHOOL,
Petitioner,

Vv.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTIN BIEL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE FREEDOM FROM RELIGION FOUNDATION
AND AMERICAN MEDICAL WOMEN’S ASSOCIATION AS AMICI CURIAE. IN SUPPORT OF RESPONDENTS in

the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed
to the following:

SEE ATTACHED

To be filed for:

PATRICK ELLIOTT
Counsel of Record

SAMUEL GROVER

BRENDAN JOHNSON

FREEDOM FROM RELIGION FOUNDATION

P.O. Box 750

Madison, WI 53701

(608) 256-8900

pelliott@firf.org

Counsel for Amici Curiae

Subscribed and sworn to before me this 10th day of March, 2020.
tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

-
General Notary :
stat of Nera we OC Clit Qudew-h, Clb
My Commission Expires Nov 24, 2020 ‘¢

Notary Public Affiant 39447

 

 
Service List

Eric Christopher Rassbach

Counsel of Record

The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700

Washington, DC 20036
erassbach@becketlaw.org

(202) 955-0095

Counsel for Petitioner

Jennifer Anne Lipski

Counsel of Record

JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
jennifer@jmllaw.com

(818) 610-8800

Counsel for Respondent
